LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 23, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

DIANA JUAN, RELATOR; EX REL. UNITED STATES OF AMERICA V. STEPHEN
HAUSER; ET AL. AND UNITED STATES OF AMERICA, REAL-PARTY-IN-INTEREST

Dear Sir or Madam:
I hereby certify that at the request of the Relator/Petitioners, on October 23,
2020, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020, on the following counsel for the Respondents:
RESPONDENT:
The Honorable Jeffrey B, Wall
Acting Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov

RESPONDENT STEPHEN
HAUSER, et al.:
Warrington Samuel Parker, III
Orrick Herrington & Sutcliffe LLP
The Orrick Building
405 Howard Street
San Francisco, CA 94105
415-773-5740
wparker@orrick.com

This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 23rd day of October 2020.

